                                       NATIONAL SCIENCE FOUNDATION
                                       OFFICE OF INSPECTOR GENERAL
                                          OFFICE OF INVESTIGATIONS


                           CLOSEOUT MEMORANDUM

Case Number: I04070023             ,                                          Page 1of 1



     In June 2004, we received allegations from a complainant who wished to remain
     confidential. The complainant's allegations arose out of educational outreach efforts
     of personnel on a n NSF grant. Specifically, the complainant alleged the PI, and
     others, had shown disregard for exportlimport laws of the US and another country
     (AC) by (1) providing technology that had dual-use capability (military as well as
     research) and (2) set up the wireless networks (which violated AC's law). (3) The
     complainant also alleged some technology had been smuggled into AC inside a n
     Ambassador's diplomatic pouch. The complainant asked for confidential source
     status, which we granted.
     The complainant described the device he believed had dual-use capabilities. He
     thought providing that device to other, developing nations potentially violated
     either Commerce Law or DoD export regulations. He did not believe anyone was
     actually doing anything illegal with the devices, but, nonetheless, that possibility
     existed. The complainant provided documentation he said supported the
     allegations, including a n email sent to him from a senior supervisor (SS) a t his
     organization in which SS admitted to smuggling educational devices, namely
     wireless networks, into other countries, and in which SS indirectly threatened the
     complainant if he caused trouble for the organization.
     The allegations were not directly within our jurisdiction. We contacted the FBI to
     ask whether it would pursue those type allegations. Given the limited information
     we provided to protect the complainant's identity, the FBI asked for the
     complainant to contact it directly. Accordingly, we provided the complainant with
     the FBI's contact information, and the complainant has contacted the FBI. Since
     we have no jurisdiction over these allegations, and they have been successfully
     forwarded to the FBI, this case is closed.




"1    "
      Ll.
        1   r r r m
